                 U.S. Department of Agriculture

                    Office of Inspector General
                     Financial & IT Operations




       Audit Report

Commodity Credit Corporation’s
   Financial Statements for
  Fiscal Years 2004 and 2003




                       Report No. 06401-17-FM
                               November 2004
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          November 5, 2004

REPLY TO
ATTN OF:       06401-17-FM

SUBJECT:       Commodity Credit Corporation’s Financial Statements
               for Fiscal Years 2004 and 2003

TO:            Board of Directors
               Commodity Credit Corporation

               Kristine Chadwick, Controller
               Commodity Credit Corporation

ATTN:          T. Michael McCann, Director
               Operations Review and Analysis Staff
               Office of Business and Program Integration
               Farm Service Agency


This report presents the auditors’ opinion on the Commodity Credit Corporation’s (CCC)
principal financial statements for the fiscal years ending September 30, 2004, and 2003. Reports
on CCC’s internal controls structure and its compliance with laws and regulations are also
provided.

KPMG Peat Marwick LLP, an independent certified public accounting firm, conducted the
audits. We monitored the progress of the audits at all key points, reviewed the workpapers, and
performed other procedures, as we deemed necessary. We determined the audits were conducted
in accordance with generally accepted auditing standards, Government Auditing Standards
(issued by the Comptroller General of the United States), and the Office of Management and
Budget’s Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.”

It is the opinion of KPMG Peat Marwick LLP, that the financial statements present fairly, in all
material respects, CCC’s financial position as of September 30, 2004, and 2003; and its net costs,
changes in net position, budgetary resources, and reconciliation of net costs to budgetary
obligations for the years then ended, in conformity with generally accepted accounting
principles. The KPMG Peat Marwick LLP report on CCC’s internal control structure over
financial reporting identified six reportable conditions. Specifically, KPMG identified
weaknesses in CCC’s:

   •    information security controls;
   •    financial system functionality and related processes;
Board of Directors                                                                         2


      •   funds control mechanisms;
      •   budgetary accounting and reporting policies and procedures;
      •   producer monitoring procedures; and
      •   financial accounting and reporting policies and procedures.

KPMG considered the first four reportable conditions to be material weaknesses. The results of
KPMG’s tests of compliance with laws and regulations disclosed instances of noncompliance
with the laws and regulations identified below:

      •   The Federal Information Security Management Act;
      •   the Debt Collection Improvement Act of 1996; and
      •   the Federal Financial Management Improvement Act of 1996.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note that the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
